         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

The Department of Energy's Loan
Guarantee Program for Clean
Energy Technologies




DOE/IG-0849                          March 2011
                                 Department of Energy
                                    Washington, DC 20585
                                         March 3, 2011


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's Loan
                         Guarantee Program for Clean Energy Technologies"

BACKGROUND

The goal of the Department of Energy's Loan Guarantee Program (Program), as defined in the
Energy Policy Act of 2005, is to provide Federal support, in the form of loan guarantees, to spur
commercial investments in clean energy projects that use innovative technologies. The
American Recovery and Reinvestment Act of 2009 amended the Energy Policy Act and
temporarily expanded the Program by providing loan guarantees for renewable energy systems,
electric transmission systems and leading edge biofuels projects. The Department estimates that
the Program, one of the largest of its kind in U.S. history, can guarantee up to $71 billion in
loans.

The Department instituted a due diligence process (See Attachment 1) to examine the viability
and legitimacy of potential projects and project borrowers, fully identify technical and financial
risks, and evaluate and propose risk mitigation strategies. As part of this process, the
Department develops a risk rating for each loan guarantee application based on an assessment of
the technical and financial risks associated with the project and borrower. According to Program
officials, the due diligence process was modeled after proven systems used by other Federal
agencies with similar programs.

As of December 2010, the Program had guaranteed loans valued at over $3.9 billion to
8 recipients and had conditional commitments for an additional $12 billion in loan guarantees.
We initiated this audit to determine whether the Department had implemented effective
safeguards to manage the Government's risk of loss and to identify opportunities to improve loan
processing activities.

RESULTS OF AUDIT

We found that the Loan Guarantee Program could not always readily demonstrate, through
systematically organized records, including contemporaneous notes, how it resolved or mitigated
relevant risks prior to granting loan guarantees. Despite a number of positive actions on the part
of Program officials, we noted that:

   •	 Decision documents summarizing the results of the due diligence and risk assessment
      processes did not always describe actions officials told us they took to address, mitigate
      and/or resolve risks; and,
   •	 Loan origination files, which according to Federal regulations are to contain key
      documentation to support actions taken as part of the loan guarantee process, were not
      maintained in the Program's official electronic information repository. Of the 18 projects
      with loan guarantees or conditional commitments, there was no information archived in
      the electronic system for 3 of the projects. The system included only limited data for
      12 additional projects. Documentation for the remaining three projects was more robust,
      but did not include all of the information necessary to describe the actions taken to
      evaluate the applicant's credit worthiness and/or the risks associated with the projects.

As noted in the Program's established policies and procedures, records describing the due
diligence and risk assessment process are pivotal pieces of information used to approve or
disapprove loan guarantees. Our review of current Federal policy promulgated by the U.S.
Department of Treasury (Treasury) and the Office of Management and Budget (OMB) and
general business practices, specifically concerning the all important issues of accountability and
transparency, confirmed that the maintenance of complete and accurate records, including
contemporaneous decision notes, is vitally important to: (a) protect the legal and financial rights
of the Government over the life of the loan guarantees; (b) ensure continuity and consistency in
the administration of the Program; (c) assist current managers and their successors in making
informed decisions; and, (d) provide a reliable source for information needed to respond to
inquiries from the OMB, the Congress, financial management agencies, and other oversight
bodies.

                                  Records Management System

We found that the Program had not developed and implemented a comprehensive records
management system. Although the Program's website referenced Federal requirements for loan
documentation, the Program had not adopted a records management system that would have
imposed structure, consistency and discipline in the development and retention of loan
documentation. Symptomatic of this, Senior Investment Officers responsible for many aspects
of the loan guarantee process told us that they were unaware of the Program's policy regarding
the types of documentation that needed to be kept and, therefore, did not always record the
results of analyses conducted during the due diligence process. As previously noted, while the
Department had decided to use a formal electronic information system designed to store
important loan records, that system had not been completely populated by Program officials. As
a result, it did not provide what was intended to be a centralized, accessible and effective source
of critically important Program information.

Our examination also revealed that the Program had not taken action to ensure that records
created by consultants and independent advisors were delivered to the Department and
incorporated in its electronic record keeping system. These records are important in that they
describe the action taken by the independent advisors and contractors to review and analyze the
technical, financial and marketing conditions of applicants' projects. We were told by Program
officials that such reviews were critical elements in the loan decision-making process. Yet, we
found that the agreements finalizing these relationships did not include records retention clauses
that are frequently employed when contractors perform work of this kind for the Federal
Government. The agreements we reviewed for independent advisor and contractor services did
not require that records created be submitted to the Department or retained for a specified period

                                                 2

of time. Based on our information requests, Program officials, after significant effort, were able
to collect and assemble a number of contractor-generated documents related to the loan
guarantees we reviewed.

                               Addressing Record Keeping Issues

We believe that a sound records management regime can be executed without compromising the
desire to award loan guarantees expeditiously. This message has been communicated on at least
two occasions to Program officials. Notably, despite previous recommendations by the Office of
Inspector General and the U.S. Government Accountability Office, actions implemented by the
Department to address records management findings were not completely effective.
Specifically, we reported in The Department of Energy's Loan Guarantee Program for
Innovative Energy Technologies (DOE/IG-0812, February 2009) that the Program had not fully
documented or recorded the results of reviews and had not always included relevant
documentation and analyses in its management information system. In that report, we
recommended that the Program document material aspects of loan application reviews in the
official electronic project files. Management concurred, reported that it had resolved the issue,
and subsequently closed the audit recommendation. The results of the current audit, however,
revealed that corrective actions taken did not fully address these records management issues.

A senior official acknowledged that the Program had not always documented the disposition of
risks but explained that the Program had accepted the risks, resolved them through an informal
process or considered them immaterial. Officials also told us that Program decisions are based
on the professional judgment of experienced staff, many of which resulted from informal
deliberations or were documented in e-mails that were not maintained. These assertions
notwithstanding, as pointed out in OMB and Treasury instructions, the lack of contemporaneous
records may adversely affect the Department's ability to manage loans. It also leaves the
Department open to criticism that it may have exposed the taxpayers to unacceptable risks
associated with these borrowers. Finally, should individual loan guarantees be subject to legal
action, the availability of a complete record is an invaluable tool in supporting the Government’s
position.

On a positive note, as our audit findings evolved and management was made aware of the status
of our review, Program officials acknowledged the need to develop and implement a sound
records management system to enhance the transparency of the decision-making process and to
update loan related policies and procedures. For example, we were told by a senior official that,
as a result of our audit, a comprehensive review of the Program's policies and procedures was
underway. Also, the Program had recently retained a Chief Operating Officer. The Chief
Operating Officer told us that one of his key objectives was to develop a records management
program. Finally, senior Program officials also indicated that they had initiated procedures to
document the disposition and closure of all risks identified during the due diligence process.

                              Other Needed Program Enhancements

Our review identified other areas of needed improvement in the Department's management of the
Program. Specifically, the Department had not:

   •	 Updated its policies and procedures to include improvements in its loan processing to
      provide for the consistent use of lessons learned; and,
                                                 3

   •	 Provided financial oversight of its independent advisors to ensure the allowability and
      reasonableness of costs. Improving reviews of billings in this area could help prevent
      reimbursements of several examples of inappropriate charges for items such as task order
      overruns and unauthorized first class air travel that we observed during our testing.

These matters were discussed in depth with Program officials during the course of the audit.

                                           Path Forward

Balancing the goal of operating an estimated $71 billion loan guarantee portfolio in innovative
technologies that are inherently risky with the Energy Policy Act's mandate to ensure a
reasonable prospect of repayment is challenging. To this end, Program officials noted that they
had taken a number of relevant actions such as increasing the number of staff supporting the
Program and implementing an online portal for submission of loan applications to improve loan
processing. However, we believe that additional improvements are both possible and practical,
and have made several recommendations designed to help ensure that loan making decisions are
transparent. Specifically, we recommend that the Executive Director, Loan Programs Office,
take the following actions designed to help ensure success of the Program:

   1.	 Update existing or create new policies and procedures to:

           a.	 Establish requirements for a records management system;

           b.	 Establish a formal lessons learned process to include loan review process
               improvements to date; and,

           c.	 Ensure that roles and responsibilities, including those for reviewing independent
               advisors costs, are clearly defined.

   2.	 Revisit loan guarantees that have been closed or that are in conditional commitment to
       ensure that documentation supporting decisions made during the due diligence process is
       adequately accounted for and maintained in a central location.

MANAGEMENT REACTION

Loan Guarantee Program officials commented extensively on the audit findings during the field
work and draft report stages of the process, expressing their disagreement with some of the
report findings. However, in comments which appeared somewhat inconsistent with this
position, management indicated that, prior to the audit, it had begun efforts to improve program
operations including actions directly related to these findings.

Management took exception to our finding that records for risk identification and disposition
were not fully maintained. Management indicated that the audit did not reflect the nature of due
diligence and the negotiation of loan guarantee transactions. Additionally, officials noted that
they did not believe that the disposition of transaction risks considered to be immaterial requires



                                                 4

extensive records or a discussion in a credit paper. Management also noted that the report did
not question the fundamental quality of the underwriting process and stressed that it had
developed a rigorous and extensive due diligence process that included numerous safeguards to
ensure that taxpayer funds are protected. Further, management disagreed with the assertion that
the results of analyses conducted during the due diligence process were not always recorded.
Management indicated that each loan guarantee transaction is supported by an array of records
that document and describe the underwriting of the transaction. However, management
recognized our concern that their current approach to documentation may leave the Department
open to criticism.

AUDITOR RESPONSE

To be clear, we did not assert that loan-making decisions were flawed. We did, however,
conclude that the Program record keeping and documentation policies and practices did not meet
standards for Federal financial programs and, as such, did not provide sufficient transparency
and accountability, especially given that the Department may guarantee up to an estimated $71
billion in loans. While we recognize that there may be professional disagreements as to the
materiality, relevance and sufficiency of documentation, simply put, in our opinion, the readily
available record supporting the due diligence process was not sufficiently organized and
maintained. Further, the many separate, inconsistent and ineffective maintenance and archiving
practices we observed during our review of thousands of documents on separate servers,
individual computers and retrieved from contractor files, demonstrated the importance of
adopting a structured and disciplined approach to records management.

As noted in our report, the audit did capture actions taken prior to and during audit field work to
address certain programmatic issues. We found, however, that management had not focused on
the important task of ensuring that loan program records were properly archived and accessible.
In fact, senior Program officials told us that they were not aware of the fact that the electronic
records system was not fully populated. Our examination also revealed that Senior Investment
Officers were uncertain about what records needed to be maintained as part of the official due
diligence process. Finally, Program officials acknowledged that because of the pressures
associated with granting loan guarantees in a timely manner, they had not focused sufficient
attention on documentation issues.

Management's response did not directly address all of our recommendations. However,
management indicated that it planned to improve its records management system and review its
policies and procedures. We are encouraged that actions are being taken to address the issues
discussed in our report. While disagreements remain, it appears that management's planned
corrective actions are responsive to our recommendations. Management's comments are
included in Attachment 4.

Attachments

cc:	 Deputy Secretary
     Acting Under Secretary of Energy
     Associate Deputy Secretary
     Chief of Staff
     Chief Financial Officer
     Executive Director, Loan Programs Office
                                                 5

                                Attachment 1


DUE DILIGENCE REVIEW PROCESS





             6

                                                                                    Attachment 2


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of our audit was to determine whether the Department of Energy (Department) had
implemented effective safeguards to manage the Government's risk of loss and to identify
opportunities to improve loan processing activities.

SCOPE

We conducted the audit from August 2010 to January 2011, at Department Headquarters in
Washington, DC. In addition, we conducted an on-site visit to one of the loan guarantee
recipient's place of operation.

METHODOLOGY

To accomplish the audit objective, we:

   •	 Reviewed applicable Federal and Departmental regulations related to the Loan Guarantee
      Program (Program);

   •	 Reviewed loan guarantee documentation maintained in the Program's official data
      repository and shared network drive, as well as documentation maintained on individuals'
      hard drives;

   •	 Analyzed initial project risks identified by applicants and/or third-party advisors and
      compared the risks to risks identified in Credit Papers to determine whether all risks had
      been addressed;

   •	 Interviewed Program officials to gain an understanding of the loan guarantee review
      process and to determine the level of interaction with independent advisors;

   •	 Interviewed Senior Investment Officers and performed a walkthrough of documentation
      for selected loan guarantees to determine the types of risk assessments performed and
      how identified risks were addressed;

   •	 Reviewed statements of work for independent advisors to determine the scope of work to
      be performed;

   •	 Analyzed invoices submitted for services provided by independent advisors for one loan
      guarantee project;




                                               7

                                                                         Attachment 2 (continued)


   •	 Interviewed a loan guarantee applicant to determine impediments in the application and
      due diligence processes; and,

   •	 Interviewed an independent advisor to determine their responsibilities in support of the
      Program.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, the audit included
reviews of Department and regulatory policies and procedures related to the Department's
management of the Program. We assessed performance measures in accordance with the
Government Performance and Results Act of 1993 and concluded that the Department had
established performance measures related to the Program. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have existed at the
time of our audit. We conducted an assessment of computer-processed data relevant to our audit
objective and found it to be sufficiently reliable.

The exit conference was held with management on February 22, 2011.




                                                 8

                                                                                   Attachment 3


                                     PRIOR REPORTS

Office of Inspector General

   •	 The Department of Energy's Loan Guarantee Program for Innovative Energy
      Technologies, (DOE/IG-0812, February 2009). This report found that while the Loan
      Guarantee Program (Program) had developed and implemented some key programmatic
      safeguards, the Program had not completed a control structure necessary to award loan
      guarantees and to monitor associated projects. Specifically, the Program had not
      finalized policies and procedures, formally documented portions of its applicant reviews,
      and formalized procedures for disbursing loan proceeds.

   •	 Loan Guarantees for Innovative Energy Technologies, (DOE/IG-0777, September 2007).
      This report concluded that there were a number of steps that should have been taken to
      foster the success of the Program. These included finalizing a staffing plan, developing
      risk mitigation strategies, implementing and executing a monitoring system, and
      promulgating procedures relating to loan defaults.

Government Accountability Office

   •	 Further Actions Are Needed to Improve DOE's Ability to Evaluate and Implement the
      Loan Guarantee Program, (GAO-10-627, July 2010). This report found that
      performance measures developed for the Program did not reflect the full scope of
      program activities. In addition, the report noted that the Program had treated applicants
      inconsistently and lacked mechanisms to identify and address their concerns.

   •	 New Loan Guarantee Program Should Complete Activities Necessary for Effective and
      Accountable Program Management, (GAO-08-750, July 2008). This report concluded
      that the Department of Energy was not well positioned to manage the Program effectively
      and maintain accountability because it had not completed a number of key management
      and internal control activities. The report noted that the Program had not sufficiently
      determined the resources it would need or completed detailed policies, criteria, and
      procedures for evaluating applications, identifying eligible lenders, monitoring loans and
      lenders, estimating program costs, or accounting for the program. Also, the Program had
      not established key measures to use in evaluating program progress.




                                               9

                                                                                                       Attachment 4




                                    Department of Energy
                                        Washington, DC 20585




MEMORANDUM FOR                          Rickey R. Hass
                                        Deputy ,Inspector General
                                        for Audits and Inspections
                                        Office of Inspector General

FROM:                             ~     Jonathan M. Silver            ~            •.   ___
                                       Executive Director             ~""IJ!!
                                     , Loan Programs Office ~

SUBJECT:                                Office of Inspector General Report
                                        The Department of Energy·s Loan Guarantee Program for
                                        Clean Energy Technologies (Project Number Al0RA017)


This memorandum constitutes the response of the Loan Programs Office (LPO) to the Office of the
Inspector General's (OIG) draft audit report on, "The Department of Energy's Loan Guarantee Program
for Clean Energy Technologies".

We appreciate the OIG's acknowledgement of the challenges associated with underwriting the
deployment of the Innovative technologies needed to advance the Nation's economic recovery and to
deveiop our energy Infrastructure. The OIG conducted an extensive audit and, although the audit team
noted some opportunities to improve LPO's record keeping, it is important to note that the report's
findings do not Implicate, or question, the fundamental quality of the underwriting of the transactions.
The lPO undertakes rigorous and extensive due diligence to review applications for loan guarantees,
from receipt to close. This includes numerous mechanisms and safeguards that are in place to protect
taxpayer funds and, specifically, to meet the statutory mandate to ensure a reasonable prospect of
repayment by the borrower.

While the audit findings are overly broad, we agree with the conclusion that the LPO must continue to
improve its formal record keeping. In fact, it should be noted that LPO was already undertaking efforts
not captured by the OIG to Improve program operations at the time of the audit, including defining
requirements for more robust records management, Integrating lessons learned into underwriting
activities, and hiring key personnel to bolster management operations. Despite our general agreement
with the OIG's recommendations, LPO disagrees with some of the findings and assertions made in the
DIG's audit report. Specifically, the lPO takes issue with the following:




                                    *     Prlnled with soy Ink on recycled paper




                                                   10

                                                                                            Attachment 4 (continued)




         Records for risk Identification and disposition were not fully maintained. The audit does not reflect the
         nature of due diligence and the negotiation of sophisticated, complex, and large project finance and
         corporate finance loan guarantee transactions. A typical loan guarantee transaction requires thousands
         of hours of work from not only finanCiers, but also lawyers, engineers, and technologists from the
         private sector, the Department of Energy, and other officials engaged in the Inter-agency review
         process. Loan guarantee negotiations and due diligence, by their very nature, are extremely fluid. One of
         the products of the due diligence process is the "credit paper' - a document LPO prepares to present
         the transaction in a succinct, but nonetheless comprehensive, manner to senior decision-makers for
         their approval. These documents Include a presentation of the material risks to the transaction, but, in
         the interest of brevity do not, by definition, include every conceivable but minor issue.

         We do not believe that the disposition of transaction risks considered by professional opinion to be
• J•.:   immaterial or trivial requlre~ extensive records and contemporaneou's notes, or discussion in a credit
         paper. To call for such an audit trail does not reflect the operational realities for lPO and would be over-
         burdensome, with little value accruing. However, LPO recognizes OIG's concern that this approach might
         leave the Department of Energy open to criticism and commits to reviewing Its poliCies and procedures
         again in this regard.

         The OIG asserts that LPO has made unsatisfactory use of Its electronic records system. We recognize
         that we have outgrown our original document and electronic records management framework. The LPO
         Initially adopted eDocs, the Department of Energy's corporate records management system, as its
         preferred system of record. User adoption was poor, primarily due to the awkward user interface and
         the degree to which It did not meet the needs of LPO. LPO is now developing a tool that will meet its
         needs, an effort led by LPO's new Chief Operating Officer and the Management Information team. This
         process will Include consolidating and centralizing LPO records. We believe this effort will address the
         concerns raised by the OIG during the course of its audit.

         The results of analyses conducted during the due diligence process are not always recorded. We
         disagree with this assertion. Every loan guarantee transaction presented for approval to the Department
         of Energy's Credit Committee and Credit Review Board Is supported by an array of records that
         document and describe the underwriting of the transaction. This includes, but is not limited to;

             •   The proposed Term Sheet, setting out the detailed terms and conditions of the transaction;
             •   The Credit Paper, providing the detailed qualification and justification of the project, Including a
                 description of the project, the technology used, sources and uses of funds, off-take
                 arrangements and/or market projections, the mitigation and disposition of material and salient
                 risks, and summary opinions from advisors;
             •   Relevant reports and studies from outside subject matter experts, usually providing market and
                 product analysis and technical feasibility studies from our independent engineers;
            •    A summary presentation of the transaction to be made by the lPO Senior Investment Officer;
                 and
            •    Other relevant Information, such as legal opinions for example, pertinent to the decision to
                 approve (or deny) the transaction.




                                                        11

      Attachment 4 (continued)




12

                                                                     IG Report No. DOE/IG-0849

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's overall
    message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name 	                                        Date

Telephone	                                    Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)

                                     Department of Energy

                                    Washington, DC 20585


                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
